DECLARATION OF SERVICE
No.
IN THE SUPREME COURT OF THE UNITED STATES

Randy Raymond Bell
Petitioner,
v.

New York State Department of Corrections
and Community Supervision et. al
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit

received
PETITION FOR WRIT OF CERTIORARI

APR 2 0 2021
SUPrImeTJo/Lg-Eg.* j

I, Randy Bell, declare pursuant to 28 USC 1746, that on April 15th, 2021,1 served: a
petition for writ of certiorari and the accompanying page count certification upon
Kate H. Nepveu, NYS Office of the Attorney General and Thomas D. Latin, with the
firm Lippes Mathias Wexler Friedman LLP, by depositing a true copy thereof,
properly enclosed in a sealed, postpaid wrapper, in a post office, in the town of
NY, a depository under the exclusive care and custody of the US
Postal Service, directed to the individuals at the addresses designated for that
purpose, therefor all parties required to be served have been served, as follows:

Kate H. Nepveu,
NYS Office of the Attorney General
The Capital, Albany,
NY, 12224
USA
Currently representing the following defendants:
New York State Department of Corrections and Community Supervision, Anthony
Annucci, Michael Caldwell, Calvin Rabsatt, Brian McAuliffe, Mike Sovie, Michele
O’Gorman, Scott Clary, Steve Garabrandt, Tony Harper, Tom Patnode, Patrick
Grey and James Bell (no relation to petitioner Randy Bell).

Thomas D. Latin,
Attorney at Lippes Mathias Wexler Friedman LLP
54 State Street, Suite 1001
Albany, NY 12207
USA
Currently representing the following defendants:
New York State Correctional Officers and Police Benevolent Association Inc., Greg
Fredericks, Mike Powers, Terry Pike, Kevin Aldous, Steve Garabrandt, Tony
Harper, Carl Hewko, Jim Bleu and James Bell.

Please be advised that defendants Steve Garabrandt, Tony Harper and James Bell
are represented by both counsels, Kate Nepveu and Thomas Latin.

I declare, under penalty of perjury, that the foregoing is true and correct.

Dated: April 15th, 2021

(AJ&JeA ¥tjuJaJ . NY, USA

7
Randy Bell, Pro Se Petitioner

